U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 23, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Usama Jamil Hamama, et al. v. Rebecca Adducci, et al., No. 19-294
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 30,
2019. The government's response is now due, after one extension, on November 4, 2019. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including December 4, 2019, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0294
HAMAMA, USAMA JAMIL, ET AL.
REBECCA ADDUCCI, ET AL.

MIRIAM J. AUKERMAN
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION OF MICHIGAN
1514 WEALTHY STREET SE
GRAND RAPIDS, MI 49506
ANAND BALAKRISHNAN
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
125 BROAD STREET
18TH FLOOR
NEW YORK, NY 10004
DAVID D. COLE
AMERICAN CIVIL LIBERTIES UNION
FOUNDATION
915 15TH STREET NW
WASHINGTON, DC 20005
DAVID JOHNSON
573 HAWKSNEST DRIVE
SOUTH HAVEN, MI 49090
MARCO SCHLANGER
625 SOUTH STATE STREET
ANN ARBOR, MI 48109
734-615-2618
MARGO. S CHLANGER@GMAIL.COM

KIMBERLY L. SCOTT
MILLER, CANFIELD, PADDOCK & STONE, PLC
101 N. MAIN STREET
7TH FLOOR
ANN ARBOR, MI 48104

